     Texas State Technical College - West Texas
                 300 College Drive
             Sweetwater, Texas 79556

    National Science Foundation Award Number
                  DUE - 9714435

                 Financial Audit
                       of
               Financial Schedules
                      and
          Independent Auditors’ Reports


For the Period October 1, 1997 to September 30, 2000




                                Leon Snead & Company, P.C.
                                416 Hungerford Drive, Suite 400
                                Rockville, Maryland 20850
                                               TABLE OF CONTENTS

                                                                                                                                Page

Executive Summary:

Background ........................................................................................................................ 1
Audit Objectives, Scope, and Methodology ...................................................................... 1
Summary of Audit Results .................................................................................................. 2
Exit Conferences ................................................................................................................. 4

Audit Findings and Recommendations:

Independent Auditors’ Report on Financial Schedules ...................................................... 5
Independent Auditors’ Report on Compliance with Laws and Regulations
  and Internal Control Over Financial Reporting ............................................................... 7

Financial Schedules and Supplemental Information:

Schedule A - Schedule of Award Costs (Award No. DUE-9714435) .............................. 15
Schedule B - Schedule of Questioned Costs (Award No. DUE-9714435) ...................... 16
Schedule C - Summary Schedules of Award Audited and Audit Results
                (Award No. DUE-9714435).................................................................... 18
Notes to the Financial Schedules ..................................................................................... 20

Appendix A – Texas State Technical College West Texas
               Comments to the Report .................................................................... 21
              XXXXXXXXXXX

             XXXXXXXXXXXXXX

XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXX
EXECUTIVE SUMMARY
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230

                                  EXECUTIVE SUMMARY

BACKGROUND

Texas State Technical College – West Texas at Sweetwater (TSTC West Texas) is an agency of
the State of Texas located in Sweetwater, Texas. On October 1, 1997, the National Science
Foundation (NSF) issued award DUE–9714435 to TSTC West Texas to fund the Southwest Center
for Advanced Technological Education (SCATE) in the areas of experimenting and
demonstrating how advanced technological education can be delivered over distance learning
systems. During the award period, SCATE focused on the development of a distance learning
infrastructure, professional development of faculty and revising materials for distance education
delivery. Under this agreement, NSF awarded TSTC West Texas $1,253,697 and the awardee
agreed to cost share $35,000 from October 1, 1997 to September 30, 2000. TSTC West Texas
claimed $1,253,697 of NSF funding and $104,929 of cost sharing for the three-year award
period.

TSTC West Texas follows the cost principles specified in Office of Management and Budget
(OMB) Circular A-21, Cost Principles for Educational Institutions and the Federal
administrative requirements contained in OMB Circular A-110, Uniform Administrative
Requirements for Grants and Agreements with Institutions of Higher Education, Hospitals, and
Other Non-Profit Organizations.

AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of our audit were to determine whether:

1. Costs charged to the NSF award by TSTC West Texas are allowable, allocable, and
   reasonable, in accordance with the applicable Federal cost principles and NSF award terms
   and conditions; and

2. TSTC West Texas’ systems of internal control are adequate to properly administer, account
   for, and monitor its NSF award in compliance with NSF and Federal requirements.
Our audit was conducted in accordance with auditing standards generally accepted in the United
States of America, Government Auditing Standards (1994 Revision) issued by the Comptroller
General of the United States, and the National Science Foundation Audit Guide (September
1996), as applicable. These standards, and the National Science Foundation Audit Guide, require
that we plan and perform the audit to obtain reasonable assurance about whether the amounts
claimed to the National Science Foundation as presented in the Schedule of Award Costs
(Schedule A), are free of material misstatement. An audit includes examining, on a test basis,
evidence supporting the amounts and disclosures in Schedule A. An audit also includes assessing
the accounting principles used and significant estimates made by the TSTC West Texas, as well
as evaluating the overall financial schedule presentation. We believe that our audit provides a
reasonable basis for our opinion.

We used non-statistical sampling to test the costs claimed by TSTC West Texas for compliance
with Federal and NSF award requirements. Based on this sampling plan, questioned costs in this
report may not represent total costs that may have been questioned had all expenditures been
tested. In addition, we made no attempt to project such costs to total costs claimed, based on the
relationship of costs tested to total costs.

SUMMARY OF AUDIT RESULTS

We performed an audit of the financial reports submitted to NSF, as well as the cost-sharing
amount claimed by TSTC West Texas for NSF Award No. DUE-9714435. These costs and the
results of our audit are shown in Schedule A and are summarized as follows:

               Award                                Claimed         Questioned
            DUE-9714435            Budget             Costs            Costs
             NSF Funding         $1,253,697       $1,253,697        $ 24,745
             Cost Sharing            35,000          104,929               0
             Total Project       $1,288,697       $1,358,626        $ 24,745

The costs claimed by TSTC West Texas for the award expenditures generally appear allowable,
allocable, and reasonable in accordance with the applicable Federal cost principles and the NSF
award terms and conditions. However, we questioned $24,745 of salaries and wages, and related
fringe benefits. Additionally, we found two material weaknesses and three reportable conditions
that could have an impact on TSTC West Texas’ ability to administer, account for, and monitor
claimed costs in compliance with NSF and Federal requirements.

Specifically, we found that TSTC West Texas improperly claimed costs for a portion of the
project director’s salaries and wages and related fringe benefits, prior to the costs being incurred.
In addition, the awardee was not able to provide documentation to support the actual work
performed by the project director, which according to the accounting records, occurred during
the nine-month period after the award’s expiration. As a result, we questioned $24,745 of the
project director’s salaries and wages, and related fringe benefits charged to the award.

Additionally, TSTC West Texas did not always maintain employee activity reports to support
approximately $650,000 in salaries and wages and related fringe benefits charged to the award.


                                              2
We believe that this deficiency, combined with the unallowable project director’s salary costs,
indicate material weaknesses in TSTC’s internal controls for charging salaries and wages, and
fringe benefits to NSF awards. As a result, neither TSTC West Texas nor NSF have any
assurance that these funds were used to support NSF award activities, although they represented
over 50 percent of the total costs claimed by TSTC West Texas. In order to substantiate the
proprietary of these costs, our review required significant amounts of testing of alternative
records, although we eventually concluded that the costs appeared allowable and allocable to the
NSF award. TSTC West Texas needs to establish control processes that will allow it to readily
identify whether labor effort charges are proper and allocable to NSF awards.

We also found that TSTC West Texas did not obtain financial disclosure statements from
investigators working on the NSF award, establish a system to track, record, and monitor its
required cost sharing, or prepare contractual agreements with all of its consultants.

TSTC West Texas officials stated that these problems occurred because the project director of the
award had been allowed to fully control the award activities with little or no oversight from other
responsible TSTC West Texas officials. In addition, communication related to the award’s
financial activities between the project director and the accounting department officials was
limited.

As a result of these material internal control weaknesses, NSF has less assurance that TSTC West
Texas properly spent award funds for authorized purposes. In addition, neither NSF nor TSTC
West Texas has any assurance that the investigators who worked on the award were free of any
conflicts of interest.

We believe that if TSTC West Texas fails to address these weaknesses, similar problems may
occur on other existing and future NSF awards. TSTC West Texas has one active NSF award for
$211,200, related to the Technology Tomorrow Scholarship Program, which is designed to
attract more students to two-year technical programs in the computer science, computer
technology and engineering technologies.

To address these material internal control weaknesses, we recommend that NSF’s Division
Directors of the Division of Institution and Award Support (DIAS) and the Division of Grants
and Agreements (DGA) ensure that TSTC West Texas, for its current and future NSF award(s),
(1) claims only costs that have actually been incurred and does not charge costs to NSF awards
after the expiration of the award; (2) maintains employee activity reports for all employees
whose salaries and wages, and related fringe benefits are charged to NSF awards; and (3)
prepares, updates and maintains investigators’ financial disclosure statements. In addition, we
recommend that NSF Directors ensure that the awardee for any future NSF award with required
cost sharing establish a system to identify, account for, monitor, and report cost-sharing expenses
as they occur and ensure that contractual agreements are established for all consultants. Given
the material nature of these control weaknesses, we also recommend that NSF recognize TSTC
West Texas as a high risk awardee under its risk management program and not make additional
awards to TSTC West Texas until corrective actions have been satisfactorily implemented and
all recommendations have been adequately addressed.




                                             3
TSTC West Texas officials did not comment on the questioned costs in their response but agreed
with the internal control and compliance findings in the report and reported that they have
implemented corrective actions. However, the findings cannot be resolved until NSF verifies
that the proposed corrective actions have been satisfactorily implemented and all
recommendations have been adequately addressed. TSTC West Texas’ response has been
summarized within the report and is included in its entirety in Appendix A.

EXIT CONFERENCES

An initial exit conference was held on November 30, 2001 at TSTC West Texas’ office in
Sweetwater, Texas. Preliminary findings and recommendations as well as other observations
were discussed.


Representing TSTC West Texas were:

         Name                       Title
         XXXXXXXX                   XXXXXX
         XXXXXXXX                   XXXXXXXX
         XXXXXXXX                   XXXXXXXXXXXXXX
         XXXXXXXX                   XXXXXXXX


Representing Leon Snead & Company, P.C. was:

         Name                        Title
         XXXXXXXXXX                  XXXXXXXX

A second exit conference was held on December 9, 2004 by telephone.             Findings and
recommendations contained in this report were discussed.

Representing TSTC West Texas was:

         Name                       Title
         XXXXXXXX                   XXXXXXXXXXXXX

Representing Leon Snead & Company, P.C. was:

         Name                       Title
         XXXXXXXXX                  XXXXXXXX


Representing National Science Foundation, Office of Inspector General were:

         Name                       Title
         XXXXXX                     XXXXXXXXX
         XXXXXXX                    XXXXX


                                          4
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


         INDEPENDENT AUDITORS’ REPORT ON FINANCIAL SCHEDULES

We audited the costs claimed by the Texas State Technical College-West Texas at Sweetwater
(TSTC West Texas) to the National Science Foundation (NSF) on the Federal Cash Transactions
Report (FCTR) – Federal Share of Net Disbursements for the NSF award listed below. In
addition, we audited the amount of cost sharing claimed by TSTC West Texas on this award.
The FCTRs, as presented in the Schedule of Award Costs (Schedule A), are the responsibility of
TSTC West Texas’ management. Our responsibility is to express an opinion on Schedule of
Award Costs (Schedule A), based on our audit.

                Award Number          Award Period             Audit Period

                 DUE-9714435        10/01/97 – 09/30/00     10/01/97 – 09/30/00

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America, Government Auditing Standards (1994 Revision) issued by the Comptroller
General of the United States, and the National Science Foundation Audit Guide (September
1996), as applicable. These standards and the National Science Foundation Audit Guide require
that we plan and perform the audit to obtain reasonable assurance about whether the amounts
claimed to NSF as presented in the Schedule of Award Costs are free of material misstatement.
An audit includes examining, on a test basis, evidence supporting the amounts and disclosures in
the Schedule of Award Costs. An audit also includes assessing the accounting principles used and
significant estimates made by TSTC West Texas’ management, as well as evaluating the overall
financial schedule presentation. We believe that our audit provides a reasonable basis for our
opinion.

We used non-statistical sampling to test the costs claimed by TSTC West Texas for compliance
with Federal and NSF award requirements. Based on this sampling plan, questioned costs in this
report may not represent total costs that may have been questioned had all expenditures been
tested. In addition, we made no attempt to project such costs to total costs claimed, based on the
relationship of costs tested to total costs.
The Schedule of Questioned Costs (Schedule B) explains the claimed costs totaling $24,745 that
are questioned as to their allowability under the NSF award agreement. Questioned costs are (1)
costs for which there is documentation that the recorded costs were expended in violation of the
laws, regulations or specific conditions of the award, (2) costs that require additional support by
the awardee, or (3) costs that require interpretation of allowability by the National Science
Foundation – Division of Institution and Award Support (DIAS). NSF will make the final
determination as to whether such costs are allowable. The ultimate outcome of this
determination cannot presently be determined. Accordingly, no adjustment has been made to
costs claimed for any potential disallowance by NSF.

In our opinion, the Schedule of Award Costs (Schedule A) referred to above presents fairly, in all
material respects, the costs claimed on the Federal Cash Transactions Reports – Federal Share of
Net Disbursements and cost sharing claimed for the period October 1, 1997 to September 30,
2000, in conformity with the National Science Foundation Audit Guide, NSF Grant Policy
Manual, and terms and conditions of the NSF award, and on the basis of accounting policies
described in the Notes to the Financial Schedule. This schedule is not intended to be a complete
presentation of financial position in conformity with accounting principles generally accepted in
the United States of America.

In accordance with Government Auditing Standards and the National Science Foundation Audit
Guide, we have also issued a report dated November 30, 2001, on our tests of TSTC West Texas’
compliance with certain provisions of laws, regulations, and the NSF award terms and
conditions, and our consideration of TSTC West Texas’ internal control over financial reporting.
That report is an integral part of an audit performed in accordance with Government Auditing
Standards and should be read in conjunction with this report in considering the results of our
audit.

This report is intended solely for the information and use of TSTC West Texas’ management,
NSF, the cognizant Federal agency for audit, the Office of Management and Budget, and the
Congress of the United States, and is not intended to be and should not be used by anyone other
than these specified parties.




Leon Snead & Company, P.C.
Rockville, Maryland 20850
November 30, 2001




                                            6
AUDIT FINDINGS AND RECOMMENDATIONS
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


              INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE
            WITH LAWS AND REGULATIONS AND INTERNAL CONTROL
                       OVER FINANCIAL REPORTING

We have audited the costs claimed as presented in the Schedule of Award Costs (Schedule A),
which summarizes the financial reports submitted by Texas State Technical College-West Texas
at Sweetwater (TSTC West Texas) to the National Science Foundation (NSF) and claimed cost
sharing for the award listed below. We have issued our report thereon dated November 30, 2001.


                Award Number           Award Period           Audit Period

                 DUE-9714435        10/01/97 – 09/30/00    10/01/97 – 09/30/00

We conducted our audit of the Schedule of Award Costs as presented in Schedule A in
accordance with auditing standards generally accepted in the United States of America,
Government Auditing Standards (1994 Revision) issued by the Comptroller General of the
United States, and the National Science Foundation Audit Guide (September 1996), as
applicable. These standards, and the National Science Foundation Audit Guide, require that we
plan and perform the audit to obtain reasonable assurance about whether the financial schedule is
free of material misstatement.

                   COMPLIANCE WITH LAWS AND REGULATIONS

Compliance with applicable Federal laws, regulations, and the NSF award terms and conditions
is the responsibility of TSTC West Texas’ management. As part of obtaining reasonable
assurance about whether the financial schedule is free of material misstatement, we performed
tests of TSTC West Texas’ compliance with certain provisions of laws, regulations, and the NSF
award terms and conditions, noncompliance with which could have a direct and material effect
on the determination of the financial schedule amounts. However, providing an opinion on
compliance with such provisions was not an objective of our audit, and accordingly, we do not
express such an opinion. The results of our tests disclosed instances of noncompliance that are
required to be reported under Government Auditing Standards and the National Science
Foundation Audit Guide and are described in Findings No. 1 through 5 below.
                INTERNAL CONTROL OVER FINANCIAL REPORTING

The management of TSTC West Texas is responsible for establishing and maintaining internal
control. In fulfilling this responsibility, estimates and judgments by management are required to
assess the expected benefits and related costs of internal control policies and procedures. The
objectives of internal controls are to provide management with reasonable, but not absolute
assurance that assets are safeguarded against loss from unauthorized use or disposition, and that
transactions are executed in accordance with management’s authorization and recorded properly
to permit the preparation of financial schedules in accordance with accounting principles
prescribed by the National Science Foundation. Because of inherent limitations in any internal
control, misstatements due to errors or fraud may nevertheless occur and not be detected. Also,
projection of any evaluation of internal controls to future periods is subject to the risk that
procedures may become inadequate because of changes in conditions or that the effectiveness of
the design and operation of policies and procedures may deteriorate.

In planning and performing our audit of the Schedule of Award Costs (Schedule A) for the period
October 1, 1997 to September 30, 2000, we considered TSTC West Texas’ internal control over
financial reporting in order to determine our auditing procedures for the purpose of expressing
our opinion on the financial schedule and not to provide an opinion on internal control.
Accordingly, we do not express such an opinion.

We noted certain matters described below involving the internal control over financial reporting
and its operation that we consider to be reportable conditions under standards established by the
American Institute of Certified Public Accountants. Reportable conditions involve matters
coming to our attention relating to significant deficiencies in the design or operation of the
internal control over financial reporting that, in our judgment, could adversely affect TSTC West
Texas’ ability to record, process, summarize and report financial data in a manner that is
consistent with the assertions of management in the financial schedule. We consider Finding
Numbers 1 through 5 described below to be reportable conditions. A material weakness is a
reportable condition in which the design or operation of one or more of internal control
components does not reduce to a relatively low level the risk that misstatements, in amounts that
would be material in relation to the financial schedule being audited, may occur and not be
detected within a timely period by employees in the normal course of performing their assigned
functions.

Our consideration of internal control over financial reporting would not necessarily disclose all
matters related to internal control over financial reporting that might be reportable conditions,
and accordingly, would not necessarily disclose all reportable conditions that are material
weaknesses. We consider the reportable conditions described below in Finding Numbers 1 and 2
to also be material weaknesses.




                                            8
Finding No. 1 — Final Reimbursement Request Not Based on Actual Cash Disbursements
and Represents Costs Incurred After the Award Expiration Date

TSTC West Texas claimed costs for future payroll costs prior to the award’s September 30, 2000
expiration date, contrary to federal and NSF grant requirements. Specifically, the awardee’s
final expenditure report (Federal Cash Transactions Report for the quarter ended September 30,
2000) submitted to NSF reported $44,109 of net disbursements, which included $24,745 for the
project director’s salaries and wages and related fringe benefits for the nine-month period
October 1, 2000 to June 30, 2001. In addition to the awardee claiming salaries and wages and
related fringe benefits before the costs were actually incurred, TSTC West Texas was unable to
provide documentation to support the work performed by the project director during the nine-
month period following the award’s expiration as benefiting NSF.

NSF’s Grant Policy Manual (GPM) Section 434 requires that payments to reimburse an awardee
be based on actual cash disbursements. In addition, the GPM Section 602.3 states that funds
may not be expended subsequent to the expiration date of the grant except to liquidate valid
commitments that were made on or before the expiration date. However, the Principal
Investigator (PI), who is no longer employed at TSTC West Texas, initiated a payroll change
after the award had expired that effectively charged one half of the project director’s salary and
related fringe benefits to the award for the nine months following the award’s expiration. The
project director is also no longer employed at TSTC West Texas. Current TSTC West Texas
officials were not aware of the reason(s) why the PI initiated this change. We were told that the
project director continued working on NSF award activities during the nine-month period, but
TSTC West Texas officials were unable to provide documentation to support this assertion.
Further, TSTC West Texas did not request an extension of the award as required by GPM
Section 602.3. Accordingly, NSF was not aware and did not authorize work on the NSF award
beyond the grant period.

As a result, NSF award funds were used after the award’s expiration, and more importantly NSF
has no assurance that the funds were used to support NSF award activities. Therefore, we
questioned $20,515 of project director’s salary and wages and $4,230 of related fringe benefits
charged to the NSF award. (See Schedule B, Note B-1.)

Recommendation No. 1

We recommend that NSF’s Division Directors of the Division of Institution and Award Support
(DIAS) and the Division of Grants and Agreements (DGA) ensure that TSTC West Texas for its
current and future award(s), establish internal control policies and procedures that require (1)
costs claimed be based only on actual cash disbursements as required by the GPM Section 434,
and (2) costs charged to NSF awards after the expiration period are used only to liquidate valid
prior commitments as required by the GPM Section 602.3.

Awardee’s Response

On March 16, 2005, TSTC West Texas officials responded to the revised draft audit report that
they concur with the finding that internal control practices during the grant period were not
adequate to prevent the unallowable charging of $24,745 of the Director’s salary and benefits to

                                            9
the grant after expiration. These officials added that the Director was allowed to complete
financial reports to the NSF without review by trained accounting staff, which resulted in the
unallowable costs being billed prior to the actual expense. The officials responded that the
College, after the audit, implemented a Grants Management policy (COP 461) which outlines
that billings to grantor agencies must be reviewed by the Business Office prior to submission,
and that progress reports are reviewed and maintained by the Resource Development Office.
The officials believe that this system of “checks and balances” will prevent future billings as
they will be balanced against actual expenditures on the College’s general ledger. The officials
continued that regarding payroll actions related to grants, the Business Office reviews all payroll
changes that affect grants as outlined in a memo by XXXXXXXXXXXXXXXXXXX XXX
XXXX and recently reissued by XXXXXXXXXXXXXXXXXX

Auditor’s Comments

TSTC West Texas’s comments appear responsive to the recommendation. However, the finding
cannot be resolved until NSF verifies that the proposed corrective actions have been
satisfactorily implemented and all recommendations have been adequately addressed including
the resolution of the $24,745 charge of the Director’s salary and benefits to the grant after
expiration.

Finding No. 2 — Employee Activity Reports Not Always Maintained

TSTC West Texas did not always maintain employee activity reports to support the $652,894 in
salaries and wages and related fringe benefits charged to the NSF award. OMB Circular A-21,
Section J. 8. (c) (2) states the distribution of salaries and wages by an institution should be
supported by activity reports. In addition, NSF’s GPM Section 350 on Records Retention and
Audit states that financial records, supporting documents, statistical records and other records
pertinent to a grant will be retained by the grantee for a period of three years from submission of
the Final Project Report. Also, the awardee’s policy although unwritten, had been to prepare
and maintain activity reports to support employee time allocations. For the NSF award, the
project director (who is no longer working at the institution) was responsible for maintaining all
activity reports for employees working on the award.

However, TSTC West Texas officials could not locate 29 employee activity reports (81 percent)
out of the 36 employee activity reports we requested for our audit. As a result, neither TSTC
West Texas, nor NSF had assurance that the funds were used to support the NSF award
activities, although these costs represented over 50 percent of the total costs claimed by TSTC
West Texas. Only after an extensive and time-consuming search and review of secondary
documentation, were we able to determine that the employees appeared to have worked on the
award. However, given the magnitude of the labor effort charges on most of NSF awards, TSTC
West Texas needs to ensure labor effort records are maintained in order to readily determine the
propriety of its charges to NSF. Since TSTC West Texas must certify to the accuracy of its
claimed costs on its FCTR, this is an important control on which to base this certification. We
consider the absence of a process to maintain labor effort records to be a material weakness in
internal control over payroll charges to NSF awards.




                                            10
Recommendation No. 2

We recommend that NSF’s Division Directors of DIAS and DGA ensure that TSTC West Texas,
for its current and future award(s), establish written internal control policies and procedures that
require activity reports to be prepared and retained for all employees whose salaries and wages,
and related fringe benefits are charged to the NSF award(s) to demonstrate compliance with
OMB Circular A-21 Section J.8. and the GPM Section 350 requirements.

Awardee’s Response

On March 16, 2005, TSTC West Texas officials responded to the revised draft audit report that
the College now maintains time-and-effort logs for all grants to which labor is charged, which
are maintained by the grants office and reviewed by the Business Office. The response pointed
out that this had been their practice for many years with XXXXXX grant funds, but on the NSF
grant, the proper checks and balances were not in place. Also, COP 461 requires this compliance
action.

Auditor’s Comments

TSTC West Texas’s comments appear responsive to the recommendation. However, the finding
cannot be resolved until NSF verifies that the proposed corrective actions have been
satisfactorily implemented and all recommendations have been adequately addressed.

Finding No. 3 — Financial Disclosures Forms Not Prepared

TSTC West Texas did not obtain financial disclosure statements from investigators working on
the NSF award. TSTC West Texas Campus Operating Standard (COS) 445 requires that all
proposals for Federal grants include a signed Conflicts-of-Interest disclosure for each primary
investigator, project director, or researcher associated with the grant proposal. The COS 445
also requires that each investigator disclose all significant financial interests of the investigator
including those of the investigator’s spouse and dependent children that would reasonably appear
to be affected by the research or educational activities funded or proposed for funding by an
agency or department of the Federal government, or in entities whose financial interests would
reasonably appear to be affected by such activities. The COS 445 further requires that an
investigator update his/her disclosure on an annual basis and as new reportable significant
financial interests are obtained. NSF’s GPM 510 on Conflict of Interest Policies requires
awardees employing more than 50 persons to establish and enforce an institutional policy on
conflict of interest, and similarly details what the policy should require.
We found that TSTC West Texas did not adhere to its COS 445 or NSF policy on financial
disclosures. The awardee could not provide financial disclosure statements for any of the three
principal investigators or the project director who worked on the award during its three-year
term. A current TSTC West Texas official stated that the project director and others working on
the award at the time apparently overlooked the COS financial disclosure policy. As a result,
neither NSF nor TSTC West Texas had any assurance that investigators who worked on the NSF
award were free of real or perceived conflicts of interests affecting NSF’s award.




                                             11
Recommendation No. 3

We recommend that NSF’s Division Directors of DIAS and DGA direct TSTC West Texas to
establish internal control policies and procedures that ensure investigators’ financial disclosure
statements are timely prepared, updated, and maintained as required by TSTC West Texas’ COS
445 and NSF’s GPM Section 510.

Awardee’s Response

On March 16, 2005, TSTC West Texas officials responded to the revised draft audit report that
COP 445 has always required financial disclosures be in place for those involved with grants, as
applicable. The officials responded that unfortunately they were in violation of the College’s
written policy at the time. These same officials pointed out that they now maintain these
statements, when applicable, in their Grants/Development Office.

Auditor’s Comments

TSTC West Texas’s comments appear responsive to the recommendation. However, the finding
cannot be resolved until NSF verifies that the proposed corrective actions have been
satisfactorily implemented and all recommendations have been adequately addressed.

Finding No. 4 — Cost-Sharing System Not Established To Identify, Account For, and
Monitor Cost Sharing

TSTC West Texas lacked a system to identify, account for, and monitor its required cost sharing,
which could result in the awardee failing to meet its required cost sharing. NSF’s GPM Section
333, NSF Cost Sharing Requirements, requires a grantee to maintain records of all costs claimed
as cost sharing and those records are subject to audit. The GPM also states that cost-sharing
expenses must not be included as contributions to any other federal award or funded by any other
federal award. In addition, OMB Circular A-110, Section 23, Cost Sharing or Matching, states
that cost-sharing expenses must be verifiable from the recipient’s records.

The NSF award required TSTC West Texas to cost share $35,000. The awardee stated that it
would cost share in the areas of technical support of the network, faculty development, new sites,
and line leases. During the audit, the awardee was able to provide documentation totaling
$104,929 to support line lease costs that it claimed as cost sharing, however it did not have a cost
sharing system established to identify, account for, and monitor cost sharing as it occurred.
According to a current TSTC West Texas official, the awardee did not realize that a system to
track cost sharing was necessary during the award period. In addition, communication between
the accounting department officials and the project director was limited.

Although the awardee could provide documentation to support its required cost sharing, a system
of collecting and monitoring specific amounts and categories of cost sharing is important to
ensure that the cost sharing required is provided, that cost sharing is not claimed on other Federal
awards, and the award objectives are met as originally anticipated. Accomplishment of the
program objectives could be jeopardize, if promised cost sharing is not met.



                                            12
Recommendation No. 4

We recommend that the NSF Directors of DIAS and DGA ensure that TSTC West Texas, for
any future NSF award with required cost sharing, establishes a system to identify, account for,
monitor and report cost-sharing expenses as it is incurred on the award, in accordance with GPM
Section 333 and OMB Circular A-110, Section 23.

Awardee’s Response

On March 16, 2005, TSTC West Texas officials responded to the revised draft audit report that at
the time this grant was being prepared and implemented, the Business Office was not informed
of the need to track cost sharing. The officials responded that COP 461 now requires that all
grant applications be developed with full involvement of the Business Office and that separate
accounts are established to track cost sharing items, which will prevent this specific problem
from recurring.

Auditor’s Comments

TSTC West Texas’s comments appear responsive to the recommendation. However, the finding
cannot be resolved until NSF verifies that the proposed corrective actions have been
satisfactorily implemented and all recommendations have been adequately addressed.

Finding No. 5 — Contractual Agreement with Consultant Not Established

TSTC West Texas did not establish a contractual agreement with one of its two consultants who
worked on the award. The consultant worked on the award for fours days during January and
February 1998 at a fee of $365 per day for a total fee of $1,460. The consultant was hired by the
awardee to provide evaluation services. NSF’s GPM Section 616.1.d.8. states that in
determining the allowability of consultant costs, the adequacy of the contractual agreement is one
of the relevant factors. The GPM further provides components of an adequate contractual
agreement, which includes a description of the service, estimate of time required, and rate of
compensation and termination provisions. When asked, TSTC West Texas officials were
unaware of the reasons a consultant agreement had not been established with the consultant
despite the fact that an agreement with the same consultant had been established for a prior
expired NSF award. The establishment of contractual agreements provides NSF with assurance
that consultant’s work was clearly defined and when compared to the contractual agreement the
costs charged to the NSF award appear to be allowable, allocable, and reasonable and in
compliance with the award terms and conditions.

Recommendation No. 5

We recommend that NSF’s Division Directors of DIAS and DGA ensure that TSTC West Texas
for its current and future award(s) establish adequate contractual agreements with its consultants
including a description of the nature of the services to be performed, an estimate of time required,
and the rate of compensation and termination provisions, as required in NSF’s GPM Section 616.




                                            13
Awardee’s Response

On March 16, 2005, TSTC West Texas officials responded to the revised draft audit report that as
a result of our audit COP 222 was developed which requires the Director of Purchasing or XX
designee sign all service contracts, and that a contract exist before any purchase order is issued.
The officials pointed out that this process has worked well over the past three years and will
prevent any recurrence.

Auditor’s Comments

TSTC West Texas’s comments appear responsive to the recommendation. However, the finding
cannot be resolved until NSF verifies that the proposed corrective actions have been satisfactorily
implemented and all recommendations have been adequately addressed.

We considered these instances of noncompliance and internal control weaknesses in forming our
opinion of whether the Schedule of Award Costs (Schedule A) presents fairly, in all material
respects, the costs claimed by TSTC West Texas on the Federal Cash Transactions Reports –
Federal Share of Net Disbursements and cost sharing claimed, for the period October 1, 1997 to
September 30, 2000, in conformity with the National Science Foundation Audit Guide, NSF
Grant Policy Manual, the Federal Laws and Regulations, and NSF award terms and conditions,
and determined that this report does not affect our report dated November 30, 2001, on the
Financial Schedule.

This report is intended solely for the information and use of the TSTC West Texas’ management,
NSF, the cognizant Federal audit agency, the Office of Management and Budget, and the
Congress of the United States, and is not intended to be and should not be used by anyone other
than these specified parties.




Leon Snead & Company, P.C.
Rockville, Maryland 20850
November 30, 2001




                                            14
FINANCIAL SCHEDULES AND SUPPLEMENTAL INFORMATION
                                                                                                             Schedule A
                                 Texas State Technical College – West Texas
                          National Science Foundation Award Number DUE-9714435
                                           Schedule of Award Costs
                                    October 1, 1997 to September 30, 2000
                                                    Final

                                                                               Claimed
                                                  (A)                         Costs After             Questioned Costs
                            Approved            Claimed        Reclassi-       Reclassi-                          Schedule
  Cost Category              Budget              Costs         fications       fications             Amount      Reference

Direct Costs
Salaries and Wages         XXXXXXX          XXXXXXXX           $    -      XXXXXXXX              $       20,515            B-1
Fringe Benefits            XXXXXXX          XXXXXXXX                -         XXXXX                       4,230            B-1
Permanent Equipment        XXXXXXX          XXXXXXXX                -        XXXXXX
Travel                     XXXXXXX          XXXXXXXX                -         XXXXX
 Subtotal                  $ 840,082        $ 828,676          $    -       $ 828,676            $       24,745

Other Direct Costs
Materials and Supplies     XXXXXXX          XXXXXXXX           $    -      XXXXXXXXX             $       -
Publications Costs         XXXXXXX          XXXXXXXX                -      XXXXXXXXX                     -
Consultant Services        XXXXXXX          XXXXXXXX                -      XXXXXXXXX                     -
Computer Services          XXXXXXX          XXXXXXXX                -      XXXXXXXXX                     -
Other                      XXXXXXX          XXXXXXXX                -      XXXXXXXX                      -
 Subtotal                  $ 286,086        $ 333,670          $    -       $ 333,670            $       -

 Total Direct Costs        $1,126,168       $1,162,346         $    -        $ 1,162,346         $       24,745

 Total Indirect Costs      $ 127,529        $    91,388             -        $    91,388                 -

 Costs Incurred in
  Excess of Claimed
  Costs                                                (37)                           (37)

 Total Costs               $1,253,697       $1,253,697         $    -        $ 1,253,697         $       24,745

 Cost Sharing              $    35,000      $ 104,929          $    -        $   104,929         $       -




(A) The total representing costs claimed agreed with the expenditures reported on the Federal Cash Transactions Report –
Federal Share of Net Disbursements as of the quarter ended September 30, 2000. Claimed costs reported above are taken
from Texas State Technical College West Texas’ books of accounts. See Schedule B and accompanying notes to this
financial schedule.




                                                          15
                                                                                  Schedule B
                        Texas State Technical College - West Texas
                 National Science Foundation Award Number DUE-9714435
                                Schedule of Questioned Costs
                     From October 1, 1997 through September 30, 2000



1. Salaries and Wages and Related Fringe Benefits — $24,745

As described in Finding 1 in the Independent Auditors’ Report on Compliance With Laws and
Regulations and Internal Control Over Financial Reporting, TSTC West Texas requested
reimbursement for future payroll costs prior to award’s expiration, resulting in overstated
expense reporting and improper reimbursement charges to the NSF award. Specifically, the
awardee’s final reimbursement request (Federal Cash Transactions Report for the quarter ended
September 30, 2000) submitted to NSF reported $44,109 of net disbursements, which included
$24,745 of the project director’s salaries and wages and related fringe benefits for the nine-
month period October 1, 2000 to June 30, 2001. In addition to the awardee claiming salaries and
wages and related fringe benefits before the costs were actually incurred, TSTC West Texas was
unable to provide documentation to support the work performed by the project director during
the nine-month period following the award’s expiration as benefiting NSF.

NSF’s Grant Policy Manual (GPM) Section 434 requires that payments to reimburse an awardee
be based on actual cash disbursements. In addition, the GPM Section 602.3 requires that funds
may not be expended subsequent to the expiration date of the grant except to liquidate valid
commitments that were made on or before the expiration date. This situation occurred because
the Principal Investigator (PI) initiated a payroll change after the award had expired that
effectively charged one half of the project director’s salary and related fringe benefits to the
award for the nine months following the award’s expiration. Current TSTC West Texas officials
were not aware of the reason(s) why the PI initiated this change. We were told that the project
director continued working on NSF award activities during the nine-month period, but TSTC
West Texas officials were unable to provide documentation to support this assertion.

As a result, NSF award funds were used after the award’s expiration, and more importantly NSF
has no assurance that the funds were used to support NSF award activities. Therefore, we
questioned $20,515 of project director’s salary and wages and $4,230 of related fringe benefits
charged to the NSF award after its expiration date.

(a) The questioned project director’s salaries and wages were calculated as follows:

                         Pay Period          Payroll
                        Ending Dates         Charged
                     October 31, 2000       XXXXXX
                     November 30, 2000      XXXXXX
                     December 31, 2000      XXXXXX
                     January 31, 2001       XXXXXX
                     February 28, 2001      XXXXXX
                     March 31, 2001         XXXXXX

                                           16
                     April 30, 2001         XXXXXX
                     May 31, 2001           XXXXXX
                     June 30, 2001          XXXXXX
                                   Total    $20,515


(b) The questioned project director’s fringe benefits were calculated as follows:

                         Pay Period           Payroll
                        Ending Dates         Charged
                     October 31, 2000       XXXXXX
                     November 30, 2000      XXXXXX
                     December 31, 2000      XXXXXX
                     January 31, 2001       XXXXXX
                     February 28, 2001      XXXXXX
                     March 31, 2001         XXXXXX
                     April 30, 2001         XXXXXX
                     May 31, 2001           XXXXXX
                     June 30, 2001          XXXXXX
                                   Total    $4,230.40




                                            17
                                                                                 Schedule C

                 Texas State Technical College – West Texas
             Summary Schedules of Award Audited and Audit Results
                    October 1, 1997 to September 30, 2000


                             Summary of Award Audited


    Award Number                    Award Period                    Audit Period
     DUE-9714435                  10/01/97 – 09/30/00            10/01/97 – 09/30/00


  Award                Type of                          Award Description
  Number               Award
DUE-9714435             Grant          The purpose of the award is to fund the Southwest
                                       Center for Advanced Technological Education
                                       (SCATE) in the areas of experimenting and
                                       demonstrating how advanced technological education
                                       can be delivered over distance learning systems.
                                       During the award period, SCATE focused on the
                                       development of a distance learning infrastructure,
                                       professional development of faculty and revising
                                       materials for distance education delivery.


                            Summary of Questioned Costs by Award

 NSF Award              Award             Claimed         Questioned        Unsupported
  Number               Budget              Costs            Costs              Costs
DUE-9714435           $1,253,697         $1,253,697        $24,745              $0


                         Summary of Questioned Cost by Explanation

                                                                               Internal
          Condition                Questioned     Unsupported       Non-      Control
                                     Costs           Costs        Compliance Weaknesses
1. TSTC West Texas charged         $     24,745         No             Yes             Yes
   a portion of the project
   director’s salaries and
   wages, and related fringe
   benefits to the award after
   its expiration. In addition,
   TSTC West Texas did not


                                          18
                                                                                 Internal
           Condition              Questioned         Unsupported      Non-      Control
                                    Costs               Costs       Compliance Weaknesses
     provide documentation to
     support the work
     performed by the project
     director during the nine-
     month period following the
     award’s expiration.
          Total Costs Questioned $        24,745



       Summary of Non-Compliance Issues and Internal Control Weaknesses


                                                                        Is Internal Control
              Condition                       Non-          Internal    Weakness Material
                                            Compliance      Control       or Reportable?
1.   TSTC West Texas improperly                Yes            Yes             Material
     requested reimbursement for a
     portion of the project director’s
     salaries and wages and related
     fringe benefits prior to the costs
     being incurred. Additionally,
     these cost were incurred after the
     award expiration date.
2.   TSTC West Texas did not                       Yes        Yes            Material
     always maintain employee
     activity reports to support
     salaries and wages and related
     fringe benefits charged to the
     award.
3.   TSTC West Texas did not obtain                Yes        Yes           Reportable
     financial disclosure statements
     from investigators working on
     the NSF award.
4.   TSTC West Texas lacked a                      Yes        Yes           Reportable
     system to identify, account for,
     and monitor its required cost
     sharing.
5.   TSTC West Texas did not                       Yes        Yes           Reportable
     establish a contractual agreement
     with one of its two consultants
     who worked on the award.



                                          19
                  Texas State Technical College – West Texas at Sweetwater
                               Notes to the Financial Schedules
                            October 1, 1997 to September 30, 2000


Note 1: Summary of Significant Accounting Policies

Accounting Basis

The accompanying financial schedules have been prepared in conformity with National Science
Foundation (NSF) instructions. Schedule A has been prepared from the reports submitted to
NSF. The basis of accounting used in preparation of these reports differs from generally
accepted accounting principles. The following information summarizes these differences:

   A. Equity

   Under the terms of the award, all funds not expended according to the award agreement and
   budget at the end of the award period are to be returned to NSF. Therefore, the awardee did
   not maintain any equity in the award and any excess of cash received from NSF over final
   expenditures is due back to NSF.

   B. Equipment

   Equipment is charged to expense in the period during which it is purchased instead of being
   recognized as an asset and depreciated over its useful life. As a result, the expenses reflected
   in the Schedule of Award Costs include the cost of equipment purchased during the period
   rather than a provision for depreciation.

   Except for awards with nonstandard terms and conditions, title to equipment under NSF
   awards vests in the recipient, for use in the project or program for which it was acquired, as
   long as it is needed. The recipient may not encumber the property without approval of the
   federal awarding agency, but may use the equipment for its other federally sponsored
   activities, when it is no longer needed for the original project.

   C. Inventory

   Minor materials and supplies are charged to expense during the period of purchase. As a
   result, no inventory is recognized for these items in the financial schedules.

The departure from generally accepted accounting principles allows NSF to properly monitor and
track actual expenditures incurred by the awardee. The departure does not constitute a material
weakness in internal controls.

Note 2: Income Taxes

TSTC West Texas is an agency of the State of Texas. The awardee is exempt from Federal
income taxes under the Internal Revenue Code. It is also exempt from Texas franchise or income
tax.

                                           20
                                  APPENDIX A




TEXAS STATE TECHNICAL COLLEGE WEST TEXAS
         COMMENTS TO THE REPORT




                 21
